OFFICE OF INSPECTOR GENERAL

       Railroad Medicare
   Fraud Detection Contracts:
       Lessons Learned
           April 7, 2011




 RAILROAD RETIREMENT BOARD
                      Railroad Medicare Fraud Detection Contracts:
                                   Lessons Learned


Abstract
After touring the Recovery Accountability and Transparency Board’s Operations Center
and observing their fraud detection and prevention methods, we decided to explore fraud
detection and prevention possibilities in the form of two limited scope Railroad Medicare
fraud detection contracts. Both contracts provided a valuable learning experience. This
paper describes these contracts and the lessons learned.

Medicare: High-Risk Area

Since 1990, the U.S. Government Accountability Office (GAO) has designated Medicare
as a high-risk area due to its size and complexity, as well as its susceptibility to
mismanagement and improper payments. 1 GAO’s February 2011 high-risk update
reiterates that “[t]he Medicare program remains on a path that is fiscally unsustainable
over the long term. This fiscal pressure heightens the need for CMS [Centers for
Medicare and Medicaid Services] to improve Medicare’s payment methods to achieve
efficiency and savings, and its management, program integrity, and oversight of patient
care and safety.” 2

GAO further stated that “[i]n 2010, Medicare covered 47 million elderly and disabled
beneficiaries had estimated outlays of $509 billion. Medicare had estimated improper
payments of almost $48 billion in fiscal year 2010. However, this improper payment
estimate did not include all of the program’s risk, since it did not include improper
payments in its prescription drug benefit, for which the agency has not yet estimated a
total amount.” 3 Improper payments of this magnitude are unacceptable and innovative
prevention and detection tools must be used to reduce their occurrence.

Railroad Retirement Board and the Railroad Medicare Program
The Railroad Retirement Board (RRB) is an independent agency in the executive branch
of the Federal government. The RRB administers comprehensive disability, retirement-
survivor, and unemployment-sickness insurance benefit programs for the nation's railroad
workers and their families.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
1
  See GAO, High-Risk Series: An Update, GAO-11-278 (Washington, D.C.: 2011).
2
  Id.
3
  Id.
                                                                                           1
             Office of Inspector General for the Railroad Retirement Board
                      Railroad Medicare Fraud Detection Contracts:
                                   Lessons Learned

consultation with CMS, selects and monitors the single nationwide Medicare Part B
Carrier contract. During fiscal year (FY) 2010, the Railroad Medicare contractor
processed more than 10 million Railroad Medicare Part B claims worth over $869 million
in paid medical insurance benefits on behalf of more than 468,000 Railroad Medicare
beneficiaries.

Office of Inspector General and Railroad Medicare Program Oversight
The Inspector General for the RRB is a Presidential Appointee, with Senate confirmation,
who serves as an independent and objective voice to both the RRB Board Members and
the Congress. The Office of Inspector General (OIG) conducts independent
investigations, audits, and management reviews of the programs and operations of the
RRB.

Starting in FY 1997 and continuing for a period of approximately 12 years, language
inserted into our appropriations law prohibited the OIG from conducting oversight of the
Railroad Medicare program. Our ability to conduct Railroad Medicare oversight was
restored on December 26, 2007. 4

Medicare Fraud Detection

Once our renewed authority permitted us to conduct Railroad Medicare oversight in
earnest, we quickly discovered that the “pay and chase” methodology of fighting
Medicare fraud is antiquated and ineffective. To be more successful in the fight against
Medicare fraud, waste, and abuse, we must incorporate innovative oversight and
proactive predictive modeling methods successfully utilized in other settings. 5

For instance, the Recovery Accountability and Transparency Board offers an excellent
example of innovative oversight. Their “operations center uses sophisticated screening
and analysis of high-risk recipients to develop risk-based resource tools for the oversight
community. The analytical tools have been designed to intercept fraud closer to the front
end of the fraud continuum.” 6

Additionally, the credit card industry has been highly successful utilizing real-time
analysis to prevent and detect fraud. Visa Inc. Corporate Overview reports that “VisaNet
is an information processing network, facilitating the transfer of value and information
among our financial institution clients, consumers, merchants, businesses and
4
  Consolidated Appropriations Act, 2008, Pub. L. No. 110-161, 121 Stat. 2205 (2008).
5
  Medicare claims are subject to pre-payment edits; however, given the current volume of improper
payments more must be done.
6
  See Recovery Accountability and Transparency Board, 2010 Annual Report (Washington, D.C. 2010).
                                                                                                    2
             Office of Inspector General for the Railroad Retirement Board
                       Railroad Medicare Fraud Detection Contracts:
                                    Lessons Learned

governments….Today, VisaNet’s centralized, integrated architecture enables Visa to
provide our clients with secure, reliable, scalable processing (authorization, clearing and
settlement)….” They further state that “[m]ore than 100 billion transactions
(authorization, clearing and settlement transactions) were processed through VisaNet in
calendar year 2009…[and they] estimate that VisaNet is capable of processing more than
20,000 transaction messages per second….[b]ecause of VisaNet’s centralized
architecture, Visa is able to ‘see’ every Visa transaction that flows through the network.
This enables Visa to risk-score transactions in real time with services such as Advanced
Authorizations, potentially stopping fraud at the most important point – before it
happens.” 7 These examples illustrate the type of innovative fraud detection and
prevention tools needed to successfully fight Medicare fraud, waste, and abuse.

Starting in 2008, we began contacting a number of Congressional members and
Administration officials to express our support for a number of innovative proactive
Medicare fraud prevention and detection legislation. Specifically, we contacted
numerous Congressional offices regarding the Seniors and Taxpayers Obligation
Protection Act of 2009 8 , the Prevent Health Care Fraud Act of 2009 9 , and the Fighting
Fraud with Innovative Technology Act 10 to respectfully request that each bill be amended
to include the Railroad Medicare program to ensure comprehensive Medicare fraud
prevention and detection. This issue continues to garner Congressional attention and
has been the subject of recent Congressional hearings. We understand that there are
plans to implement “a number of measures that will shift [CMS’] enforcement and
administrative actions from a ‘pay and chase’ mode to the prevention of fraudulent and
other improper payments.” 11 Additionally, they are presented “with a valuable opportunity
to partner with the private sector and collaborate on fraud detection efforts based on tools
and methods that are already succeeding in other sectors.” 12 We fully support these
efforts and hope that Railroad Medicare is included in their plans.

Railroad Medicare Fraud Detection Contracts
The successes enjoyed by the Recovery Accountability and Transparency Board coupled
with our concerns regarding improper payments in the Railroad Medicare program, led us

7
  Visa Inc. Corporate Overview may be located at http://corporate.visa.com/_media/visa-corporate-
overview.pdf (accessed March 28, 2011).
8
  Seniors and Taxpayers Obligation Protection Act of 2009, S. 975, 111th Cong. (2009).
9
  Prevent Health Care Fraud Act of 2009, H.R. 4222, 111th Cong. (2009) and related bill Prevent Health
Care Fraud Act of 2009, S. 2128, 111th Cong. (2009).
10
   Fighting Fraud with Innovative Technology Act, H.R. 5546, 111th Cong. (2010).
11
   Fighting Fraud and Waste in Medicare and Medicaid: Hearing before the Subcommittee on Labor, Health
and Human Services, Education and Related Agencies of the U.S. Senate Committee on Appropriations,
112th Cong. (2011) (Testimony of Peter Budetti, M.D., J.D.).
12
   Id.
                                                                                                    3
             Office of Inspector General for the Railroad Retirement Board
                        Railroad Medicare Fraud Detection Contracts:
                                     Lessons Learned

into two limited scope contracts for Railroad Medicare Part B 13 claims data analysis.
Since we do not have access to live claims data, we were limited to post-payment review.
The parameters for both contracts were also narrowed by funding limitations.

Both contractors were quickly able to import and model data, including large volumes of
Railroad Medicare claims information. Based upon our limited experience, we believe
that these types of data platforms are useful for conducting searches, testing fraud
hypotheses, and providing audit or investigative leads. We believe that they may be
beneficial for pre-payment analysis and predictive modeling to help stop improper
payments before they go out the door. A brief description of each contract and the
lessons learned from this experience are described below.

Thomson Reuters

To identify potentially fraudulent Railroad Medicare claims, we entered into a
competitively bid, limited scope contract with Thomson Reuters to review and analyze
three years worth of Railroad Medicare Part B claims. We selected four algorithms to
analyze the more than 66 million records contained in Railroad Medicare Part B claims
data from calendar years 2007, 2008, and 2009. The following briefly describes the four
algorithms along with preliminary results. 14

      1.    Objective: To determine whether any Railroad Medicare providers fraudulently
           billed for services not provided.
           Algorithm: Identify Railroad Medicare claims for services incurred 60 or more
           days after the beneficiaries’ recorded dates of death as reported on the Social
           Security Administration’s Death Master File (DMF).
           Preliminary results: There were 41 beneficiaries identified with Railroad
           Medicare Part B services incurred 60 or more days after their dates of death (as
           identified by the DMF).

      2.    Objective: To determine whether any Railroad Medicare providers fraudulently
           billed for emergency transportation to routine dialysis or physical therapy
           appointments.
           Algorithm: Identify instances of emergency transportation when the patients
           received non-emergency dialysis-related services or physical therapy on the
           same day of the transport.


13
   We did not include Durable Medical Equipment, prosthetics, orthotics, or supply claims because they are
not processed by the Railroad Medicare Part B contractor.
14
   All results are considered preliminary because they require additional investigation, including medical
review, to validate the results.
                                                                                                         4
              Office of Inspector General for the Railroad Retirement Board
                     Railroad Medicare Fraud Detection Contracts:
                                  Lessons Learned

          Preliminary Results: There were 939 unique patients who had either dialysis-
          related services or physical therapy on the same day as an emergency
          transportation trip.

     3.    Objective: To identify potential upcoding by Railroad Medicare providers.
          Algorithm: Analysis of the 100 oldest Railroad Medicare beneficiaries with
          claims.
          Preliminary Results: There were 4,028 claim lines associated with the 100
          oldest beneficiaries with paid claims. On average these patients had 13.67
          claims for medical care during the three year period.

     4.    Objective: To identify improper payments.
          Algorithm: Indentify providers who have submitted claims for services after they
          were officially sanctioned/excluded from Government programs per the Office of
          Inspector General for the Department of Health and Human Services’ List of
          Excluded Individuals/Entities (LEIE).
          Preliminary Results: This algorithm identified 29 Unique Provider Identification
          Numbers (UPIN) from the LEIE that had Railroad Medicare professional claims
          after their sanctioned date.

Palantir Technologies

We had the opportunity to visit the Recovery Accountability and Transparency Board’s
Operations Center and observe the functionality of Palantir Technologies’ (Palantir) data
analysis platform. In order to gain a better understanding of how this analytical tool may
be utilized for fraud detection in the Railroad Medicare program, we entered into a two
month data analysis pilot project.

Since we do not have access to live claims data, Palantir analyzed the more than
66 million records contained in Railroad Medicare Part B claims data from calendar years
2007, 2008, and 2009. Their platform utilized data fusion to quickly integrate a variety of
information sources including coding patterns that OIG had identified in previous fraud
cases. Palantir was able to fuse this information to identify non-obvious relationships and
patterns in the claims data. They were also able to present a graphic display of the
Railroad Medicare claims data, illustrating provider billing patterns, timelines reflecting
questionable treatment frequencies, and improbable geospatial connections between
providers and beneficiaries.




                                                                                             5
             Office of Inspector General for the Railroad Retirement Board
                          Railroad Medicare Fraud Detection Contracts:
                                       Lessons Learned

Lessons Learned

Data analysis results are only as reliable as the original data sources utilized.

Our recent Railroad Medicare fraud detection experience highlighted the fact that results
are only as reliable as the original data sources utilized. During the course of these
contracts, we used a variety of Railroad Medicare and RRB data files, the publically
available DMF, and the publically available LEIE. Unfortunately, we became aware of
data integrity issues, such as inaccurate or incomplete data, with each of these sources.
Inaccurate or incomplete data increases the likelihood of false positives in both predictive
modeling and data analytics, thereby requiring extensive investigation before funds may
be recouped.

The compartmentalization of Medicare claims processing by geographic region or
by class of beneficiary, as is unique to the Railroad Medicare program, makes it
difficult, if not impossible, to see the “big picture” and has a negative impact on
efforts to identify erroneous or fraudulent claims.

The results of our recent contracts illustrated that it is extremely difficult to detect national
fraud trends or significant aberrances based solely on Railroad Medicare data. Medicare
fraud is a national problem and the compartmentalization of claims data across
geographic zones or class of beneficiary makes it difficult to fully analyze fraud trends.
Our experience highlights the necessity for the Integrated Data Repository (IDR). The
IDR, which is required by the Patient Protection and Affordable Care Act as amended by
the Health Care and Education Reconciliation Act of 2010, 15 is designed to support an
integrated data warehouse containing health care related data across all benefit
categories. In particular, the IDR will include national claims and payment information
from Medicare parts A, B, C, and D, Medicaid, the Children’s Health Insurance Program,
and health related programs by the Department of Veterans Affairs, the Department of
Defense, the Social Security Administration, and the Indian Health Service. To
adequately address health care fraud in the Railroad Medicare program, it is imperative
that Railroad Medicare Part B claims data is included in both the IDR and any predictive
modeling or proactive fraud detection activities using IDR data.

In addition to the IDR, Medicare claims processing should be consolidated into one
national processor. Currently, Medicare claims processing is divided into zones;
however, Medicare fraud does not stop at geographic zone. Under the current system,
sophisticated criminals may simply relocate to another zone once their billings fall under
increased scrutiny. A single Medicare processor offers a “centralized architecture” that

15
     Pub. L. No. 111-148, 124 Stat. 119 (2010) and Pub. L. No. 111-152, 124 Stat. 1029. (2010).
                                                                                                  6
                Office of Inspector General for the Railroad Retirement Board
                         Railroad Medicare Fraud Detection Contracts:
                                      Lessons Learned

would be ideal for predictive modeling fraud prevention and detection. This technology
would bring greater transparency to the Medicare program and would be a vast
improvement on the current system of “pay and chase.”

Data analysis reveals aberrances which may be used as audit or investigative
leads; however, any leads developed will require substantial amounts of audit or
investigative work to confirm that the claim(s) should not have been paid.

Data analysis and the application of algorithms have the capacity to produce false
positives and must be thoroughly investigated before any funds may be recovered.
Additionally, the cost of the investigation, including any medical reviews, must be
weighed against the potential recoupment value.

Our recent experience illustrated that cost analysis is especially poignant in the Railroad
Medicare program. Since Railroad Medicare beneficiaries are spread across the United
States, the aberrances represented small dollar amounts and, without complete Medicare
claims data, it is difficult to determine whether the Railroad Medicare aberrance is a
minor instance or part of a larger fraud scheme. This combined with the potential for
inaccurate data makes recoupment impossible without a thorough investigation.

The “pay and chase” methodology of fighting Medicare fraud, even with the use of
powerful software tools, is ineffective and work intensive. Medicare must institute
better controls on the front-end to prevent the disbursement of improper
payments.

As stated previously, the Recovery Accountability and Transparency Board offers an
excellent example of innovative oversight. Their “operations center uses sophisticated
screening and analysis of high-risk recipients to develop risk-based resource tools for the
oversight community. The analytical tools have been designed to intercept fraud closer
to the front end of the fraud continuum.” 16

It is imperative that resources are focused on preventing improper payments including
the utilization of enhanced provider screening and technologically advanced Medicare
cards. Paper Medicare cards have outlived their usefulness and are susceptible to
identity theft. Technologically advanced Medicare cards, such as Common Access cards
being used by the Department of Defense or chip technology utilized by Visa Inc., not
only offer the opportunity to track Medicare spending at the place of service, aid in the
prevention of improper Medicare payments and identity theft but may also increase
claims processing speed. In fact, Visa Inc. states that “[c]hip cards have a small,
powerful, embedded microprocessor that can provide enhanced security and increased
16
     See Recovery Accountability and Transparency Board, 2010 Annual Report (Washington, DC. 2010).
                                                                                                      7
                Office of Inspector General for the Railroad Retirement Board
                       Railroad Medicare Fraud Detection Contracts:
                                    Lessons Learned

transaction speed.” 17 Since the vast majority of Medicare providers are required to
submit electronic Medicare claim forms, a technologically advanced Medicare card may
help to ensure accuracy by reducing the amount of data input required for claims
submission.

In addition, consideration should be given to utilizing a single national Medicare
processor. A single Medicare processor would offer a “centralized architecture” and
would be ideal for predictive modeling fraud prevention and detection technology. This
new technology would bring greater transparency to the Medicare program and would be
a vast improvement on the current system of “pay and chase.”

We must concentrate on preventing improper payments by continuing to explore
enhanced provider screening and the possibilities of utilizing technologically advanced
Medicare cards. This technological advancement will aid in both the prevention and
detection of fraud, waste, and abuse in the Medicare program. However, it must be
noted that data integrity is the key to proper prevention and detection. Inaccurate or
incomplete data increases the likelihood of false positives in both predictive modeling and
data analytics, thereby requiring extensive investigation before funds may be recouped.

Conclusion
Medicare fraud is a pervasive, multifaceted problem which often involves elaborate
schemes. In order to release the fiscal pressures on the Medicare program and to
increase the likelihood of sustainability, we must incorporate innovative oversight
techniques successfully utilized in other settings. Analyzing data in a segmented manner
based upon either a particular geographic zone or type of Medicare claim may allow
fraud to remain undetected. Our Railroad Medicare fraud detection project demonstrated
that the optimum manner to analyze data is on a nationwide basis including all Medicare
Carriers and types of Medicare claims. In addition, we must concentrate on stopping
Medicare fraud before it happens including utilizing technologically advanced Medicare
cards, enhancing provider screening, and focusing on predicative modeling. While we
recognize that numerous prepayment edits are already in place, a vast amount of fraud
occurs despite these edits. An open dialogue regarding Medicare oversight is imperative
to ensuring the integrity of the program.




17
  Visa Inc. Corporate Overview may be located at http://corporate.visa.com/_media/visa-corporate-
overview.pdf (accessed March 28, 2011).

                                                                                                    8
             Office of Inspector General for the Railroad Retirement Board
